CARDHOLDER AGREEMENT TERMS & CONDITIONS AND
TRUTH IN LENDING DISCLOSURE
This Credit Card Agreement governs the following accounts:
VISA Classic and VISA Gold. In this agreement, the words
“you” and “your” mean any person (if more than one,
individually and jointly) who is responsible for your account.
“The Account” means the VISA Classic or VISA Gold as the
case may be. “We,” “us” and “our” refer to the bank, and
“Card” refers to the VISA card(s) we issue to you. “Account”
refers to your VISA Account with us.
1. Use of Your Account: We have sent or will send you the
Card you requested. You agree to sign the Card promptly
upon receipt. By signing or using the Card or your Account,
you agree to be bound by all of the terms of this Agreement.
You may use the Card to lease or purchase goods (Purchases)
and to obtain services on credit from any person who accepts
the Card and to obtain loans from us (Cash Advances) or from
anyone who will accept the Card. You may also transfer
balances from other credit card accounts to your Account
(Balance Transfers). The minimum Balance Transfer allowed is
$500.00. Balance Transfers will be treated the same as Cash
Advances. We do not promise that everyone will honor the
Card, and we have no obligation to you if anyone refuses to
accept the Card. We will not be liable if any merchant, bank
or other person does not honor your Card, or fails to provide
any service made available to you by us. From time to time
you may be required to furnish identification when your Card
is presented for use. For recurring payments, you must notify
the merchant if your card number or expiration date has
changed or your card is closed. We may also provide the
merchant or the participating network your new account
number and expiration date as enrollment in the Visa
Account Updater (VAU) Service is automatic; see paragraph
27 for additional information.
2. Obtaining Credit Without a Card: If you or someone you
authorize to use your Account signs a sales slip, obtains a
Balance Transfer or Cash Advance, or gives your Account
number to make a Purchase or obtain a Balance Transfer or
Cash Advance without presenting the Card (such as for a mail
order or a telephone purchase), the legal effect will be the
same as if the Card itself was used by you.
3. Credits for Refunds: If you obtain a refund, adjustment or
credit for a Purchase made with the Card, you will receive a
credit to your Account, not cash.
4. Return of Cards: We have the right to repossess at any
time the Card that we give you. You agree to surrender it at
our request.
5. Obligations on Your Account: You authorize us to pay and
charge your Account for all Balance Transfers, Purchases and
Cash Advances resulting from the use of the Card or your
Account. You agree to pay us for all of these Balance
Transfers, Purchases and Cash Advances. You also agree to
pay us the finance charges that are assessed on your Account,
and any other amounts that you owe us according to the
terms of this Agreement. Each person who signed the

application to open an Account with us or otherwise agrees is
obligated to pay the full amount owed on it. We may require
that you pay the full amount without our first asking the
other person(s) to pay.
We are not obligated to authorize a transaction using your
Card or your Account if (1) your credit line has been exceeded
or would be exceeded by the transaction; (2) you have failed
to pay amounts owed to us when due or have failed to follow
any of the terms of this Agreement; (3) you have notified us
or we have determined that the Card has or may have been
lost or stolen or that there may be unauthorized access to
your Account; or (4) you are in default or your rights under
this Agreement have expired or been revoked. We are not
liable for payment of late fees or any other fees on another
account from which we completed a balance transfer to this
Card.
6. Your Credit Line: Your credit line is shown on the folder
containing your Card and/or on each monthly periodic
statement. You agree not to make any Balance Transfers,
Purchases or obtain any Cash Advances that would make the
unpaid balance of your Account exceed this limit. If you do,
we may demand that you pay the excess and you agree to
pay it immediately. You also agree that we may change or
cancel your credit line at any time subject to applicable laws
or regulations without prior notice and without affecting your
obligation to pay amounts that you owe under this
Agreement. Any such change or cancellation may result from
our periodic review of the performance on your Account
and/or consumer credit reports we may obtain from
consumer reporting agencies.
7. Periodic Statement: All accounts will receive monthly
periodic statements except those noted below. Accounts
with a zero balance and no activity will not receive a periodic
statement. An account with a credit balance over $1.00 will
receive 6 periodic statements reflecting this balance. An
account with a balance (positive or negative, excluding
unpaid finance charges) of less than $1.00 will receive one
periodic statement reflecting this balance. You agree to
notify us if you do not receive any particular statement.
Periodic statements will be mailed or delivered to you at least
twenty-one days before the payment due date.
8. Payments on Your Account: All payments must be made
by check or money order payable in US dollars and delivered
or mailed to us at the address indicated on your periodic
statement. Any such payment may be returned without
applying it to your Account for reasons including that it is
postdated, incomplete, the numeric amount is different than
the written amount or it is not made payable as indicated on
your periodic statement. We may, but are not obligated to,
accept any payment that is not drawn on the US Post Office
or a financial institution located in the United States.
Payments received by 5PM EST at the location specified on
the front of the periodic statement after the phrase “Please
1

Corporate Visa Disclosure - DR

REV. 10/2018

Mail Your Payments to:” will be credited as of the date of
receipt to the account specified on the payment coupon.
Payments made in person during normal business hours at
branch locations where such payments are accepted will be
treated as received on the same day if received prior to 5:00
PM local time Monday thru Friday. Payments made in person
on Saturday will be credited the next business day. Payments
that do not conform to the requirements set forth on or with
the periodic statement (e.g. missing payment stub, payment
envelope other than as provided with your periodic
statement, multiple checks or multiple coupons in the same
envelope) may be subject to delay in crediting, but shall be
credited within five days of receipt. We can accept late or
partial payments and payments that are marked with
restrictive endorsements such as “payment in full,” without
losing any of our rights.
9. Minimum Monthly Payment: Each month, you may pay
all or any part of your balance, except you must pay us at
least your minimum payment by the due date of the
payment. Your minimum monthly payment is the greater of
three percent (3%) of the outstanding balance of your
Account; rounded up to the next whole dollar, or $25.00 plus,
at our option, any amount you owe in excess of your credit
line, plus any amounts past due.
10. Application of Payments: The amount of any payment
on your Account will be applied in the following order:
Balance Transfer and Cash Advance Finance Charges, Retail
Purchases Finance Charges, Balance Transfer and Cash
Advance Fees Billed, Retail Purchase Fees Billed, Balance
Transfer and Cash Advance Minimum Payment Due, Retail
Purchase Minimum Payment Due, Balance Transfer and Cash
Advance Previous Balance, Retail Purchases Previous Balance,
New Balance Transfer and Cash Advance Activity, New Retail
Purchase Activity, Balance Transfer and Cash Advance
Unbilled Fees and Retail Purchases Unbilled Fees.
11. Credit Balances and Overpayments: If we accept a
payment for an amount in excess of your outstanding
balance, your available credit line will not be increased by the
amount of such overpayment nor shall we be required to
authorize transactions for an amount in excess of your
assigned credit line. If there is a credit balance on your
Account or you make an overpayment which creates a credit
balance, we will apply it to future amounts owed.
12. Finance and/or Interest Charges: Finance charges on
your Account are imposed in two ways. One way is to apply a
periodic rate to an average daily balance. The second way is
by assessing transaction fees in connection with Cash
Advances, Balance Transfers, International Transactions or
Late Payments. The circumstances under which these will be
assessed and an explanation of how they are determined are
described below.
Finance Charges Determined by Periodic Rate:
To compute this portion of the finance charge, an average
daily balance is multiplied by its monthly periodic rate. The
results of these calculations are then added together to
determine this portion of the finance charge.
Daily Balance of Purchases:

The daily balance of Purchases is determined by taking the
beginning Purchase balance each day, adding any new
Purchases and subtracting any payments, credits, nonaccruing fees, and unpaid finance charges.
Daily Balance of Cash Advances and Balance Transfers:
The daily balance of Cash Advances and Balance Transfers is
determined by taking the beginning balance of Cash
Advances and Balance Transfers each day, adding any new
Cash Advances and Balance Transfers and subtracting any
payments, credits, non-accruing fees, and unpaid finance
charges.
Average Daily Balance:
The average daily balance is determined by dividing the sum
of the daily balances during the billing cycle by the number of
days in the cycle.
Annual Percentage Rates:
The monthly periodic rate and the corresponding Annual
Percentage Rate are variable rates and may increase or
decrease from one billing cycle to another. We will calculate
the Annual Percentage Rate by adding a margin to the rate
disclosed as the US Prime Rate reported in the “Money
Rates” table of “The Wall Street Journal” on the first business
day of each month. The margin added to the US Prime Rate
for the Classic VISA Card is currently 9.9%. The margin added
to the VISA Gold card is currently 7.9%. Such rate shall not
exceed 18% unless permitted by law. The finance charge on
balances for each billing cycle will be computed by applying a
monthly periodic rate equal to 1/12th of the Annual
Percentage Rate in effect for such billing cycle on the
respective average daily balances. The Annual Percentage
Rate and the monthly periodic rate may increase if the prime
rate increases, and any such increase in the Annual
Percentage Rate will become effective for the second billing
cycle after the Prime Rate increases. If the Annual Percentage
Rate and the monthly periodic rate increase, the finance
charge and the minimum payment amount may increase.
Each change in the Annual Percentage Rate and in the
corresponding periodic rate will apply to any balance
outstanding on the effective date of such change as well as to
future Purchases, Cash Advances and Balance Transfers.
The Annual Percentage Rate at the time this disclosure was
prepared (10.12.2018) is: VISA Gold Card – 13.15% and VISA
Classic Card – 15.15%.
Finance Charges Accrual and Grace Period:
To avoid incurring an additional Finance Charge on the
balance of Purchases reflected on your monthly statement
and, on any new Purchase appearing on your next monthly
statement, you must pay the entire New Balance in full
shown on your monthly statement, on or before the Payment
Due Date. The grace period for the New Balance of Purchases
extends to the Payment Due Date. The Finance Charges for a
billing cycle are computed by applying the periodic Rate to
the “average daily balance” of Purchases.
To avoid incurring an additional Finance Charge on the
beginning balance of Cash Advances and balance Transfers
reflected on your monthly statement, you must pay the
Beginning Balance shown on your monthly statement on or
2

Consumer Visa Disclosure - DR

REV. 10/2018

before the Payment Due Date. No grace period is provided
for current cycle Balance Transfer and Cash Advance
transactions. The Finance Charges for a billing cycle are
computed by applying the Periodic Rate to the “average daily
balance” of Cash Advances and Balance Transfers.
13. Other Fees and Charges:
Late Payment Charges: For any minimum monthly periodic
payment which is not paid within 26 days after the closing
date subsequent to the payment due date as shown on your
periodic statement, you may be charged and you agree to pay
us, a late payment charge of $20.00. Your payment due date
will always be on the same day of the month, or the next
business day if the date falls on a holiday or weekend. If a due
date falls on a holiday or weekend when payments are not
received or accepted by mail, the payment will not be
counted as a late payment if it is received the next business
day. Payments received in our branches by 5 PM will be
credited the same day. For other information regarding
payments on your account refer to paragraph #8.
Balance Transfer Fee: For each Balance Transfer, we will
assess a Balance Transfer Transaction Fee of 2% with a
minimum charge of $10.00 and a maximum charge of
$100.00 to be charged on the date the Balance Transfer is
posted to your account. No grace period applies on any
transaction finance charge imposed for Balance Transfers.
Cash Advance Fee: For each Cash Advance we assess a Cash
Advance Transaction Fee of 2%, with a minimum charge of
$5.00 and a maximum charge of $100.00 to be charged on
the date the Cash Advance is posted to your account. No
grace period applies on any transaction finance charge
imposed for Cash Advances.
Over the Limit Fees: Your account features no over limit fees.
However, any transaction that causes you to go over your
credit limit may be declined.
International Transaction Fees: International transactions are
defined as cross border and/or currency conversion
transactions that occur between a merchant outside the
United States and a United States cardholder (whether or not
the cardholder is outside of the United States at the time of
the transaction.) For these cross border and/or currency
conversions, VISA charges up to 1.0% on the transaction
amount. When purchase transactions are made online, by
telephone or in person from merchants using non-U.S. banks
those transactions may be subject to International Service
Assessment (ISA) transaction fees assessed by the processor
of the transaction. The Bank assesses no additional
international fees.
Unemployment, Disability and Life Credit Insurance: If you
are offered unemployment, disability and/or life credit
insurance in connection with your Account, and you choose
to purchase it through us, you authorize us to bill you its cost
each month on your periodic statement and you agree to pay
for it. Collection Costs and Attorneys’ Fees: As permitted by
applicable law, you agree to pay all court and other
reasonable costs of collection actually incurred by us in the
collection of any amounts you owe us under this Agreement
in the event we refer your Account after it is in default to an

attorney who is not our salaried employee to collect such
amounts. In no event shall the costs charged exceed any
legal limitations.
14. Default: Your Account will be in default and we can
require that the outstanding balance be paid (a right of
acceleration), if (1) you exceed the credit limit in effect on
your Account; (2) you fail to pay any amount owed under this
Agreement when due; or (3) your ability to pay us is
materially impaired (including, but not limited to, bankruptcy
or insolvency proceedings that are initiated by or against
you). We do not have to notify you or demand payment in
order to take this action, unless applicable law requires that
we give you a notice of a right to cure your default. Your
Account will not be accelerated in the event of default if not
permitted by state law.
15. Cancellation: We can at any time without prior notice
cancel your privileges under this Agreement (and we can list
your Card in warning bulletins). We will notify you of a
cancellation. You agree that you will not try to make any
Purchase or Balance Transfer or obtain any Cash Advance
after you have been notified that your privilege to use the
Card has been canceled. You may cancel your Account at any
time by notifying us and cutting all Cards issued on your
Account in half. You will remain liable for any charges made
to your Account (by you, a joint Account cardholder, or
anyone to whom you have lent, given, or had issued a Card
on your Account) prior to your cutting all Cards in half and
notifying us of the cancellation. For any cancellation of your
Account, we can require that you return to us all Cards issued
on your Account.
16. No Security Interest: If you now or in the future have
other loans from us, collateral securing those other loans will
also secure your obligations under this Agreement except for
your household goods and your primary dwelling, and except
as otherwise prohibited by law.
17. Credit Reporting: You agree that a consumer credit
report may be requested periodically from one or more
consumer reporting agencies and used in connection with
your application and any update, renewal or extension of
credit on your Account. If you request, you will be informed
whether any consumer report was requested and, if so, of the
name and address of the consumer reporting agency that
furnished the report. You agree that we may exchange credit
information about you with others in connection with your
application, your Account, and any credit we extend to you.
18. Foreign Currency Transactions: All payments by you will
be made in US dollars. Charges incurred in currencies other
than US dollars will be converted to US dollars at the rate in
effect at the time such charges are converted by us or our
agent or other authorized party making such conversion.
Other International transaction fees may apply to foreign
currency transactions as outlined in the International
Transaction Fees section of this agreement.
19. Amendments to this Agreement: We can amend any of
the terms of this Agreement at any time, and we can set the
effective date for any such amendment. We will provide you
with a written notice outlining the significant changes to your
3

Consumer Visa Disclosure - DR

REV. 10/2018

account at least 45 days in advance of the change to the
address provided by you for the mailing of your monthly
statements. The new terms will affect all outstanding
balances to the extent allowed by law. You may reject the
significant changes in terms within the 45 day period by
calling 425-921-2432 or toll free 1-877-921-2432, or writing
th
The Bank of Washington, 5901 196 Street SW, Lynnwood,
WA 98036. If you reject changes in terms, your account will
be closed and your ability to use the various features of the
account will be terminated or suspended. Your account will
remain open only for you to make monthly payments until
the balance (if any) is paid in full.
20. When this Agreement becomes Effective: This
agreement becomes effective upon our approval of your
account.
21. Delayed Enforcement; Severability: We may delay
enforcing our rights under this Agreement without losing any
of them. The invalidity of any provisions of this Agreement
shall not affect the validity of any other provision.
22. Applicable Law: The laws of the United States and the
State of Washington apply to this Agreement and to your use
of the Card and your Account.
23. Inquiries or questions: You may address any billing
errors, inquiries or questions which you have about your
Account to:
Customer Service
PO Box 30495
Tampa Florida 33630
Or you may call us at 1-800-423-7503. If you telephone
instead of writing, you may lose certain rights the law gives
you to dispute billing errors.
24. Liability for Unauthorized Use: You may be liable for the
unauthorized use of your Card. You will not be liable for
unauthorized use that occurs after you notify The Bank of
Washington by writing to us at the above address or calling us
at the above number, and notifying us of the loss, theft, or
possible unauthorized use of your Card. In any case, your
liability for unauthorized use will not exceed $50.00. You
agree that anyone who is issued a Card for your Account (or
anyone to whom you lend or give your Card) is authorized to
make charges to your Account to the same extent as you and
that such authority cannot be limited by you. Such authority
will continue until you revoke it by notifying us, obtaining the
Card in your physical possession, and if it is a Card issued to
an authorized user, by also cutting it in half and canceling the
card in writing.
Annual Membership Fees: If your account is a VISA Gold
Card, the annual membership fee is $25 or if your account is a
Classic VISA card, it is $12. This fee may be waived if you
have a qualifying banking package of services with The Bank
of Washington.
Replacement Card: You may notify us to request a
replacement Card.

25. Disclaimer of Liability: We offer the Card, the Account
and related services in our own interests and disclaim any
duty or responsibility other than those expressly set forth in
this Agreement.
Notices:
All notices required to be given by us in connection with your
Account shall be deemed to have been delivered on the day
when they are deposited in the U.S. Mail.
26. VISA Rules and Regulations: Conflicts. Cardholder and
Issuer agree to abide by all applicable rules and regulations of
VISA USA Inc (VISA) as applicable as well as all applicable laws
and changes to them. If there is any conflict between the
provisions of this Agreement and the rules and obligations of
VISA, the rules and regulations of VISA shall control. In order
to continue to provide these services, VISA cards may not be
used for any illegal transactions including but not limited to
online internet gambling. Under Federal rules, the bank must
have policies and procedures to block transactions that
finance Internet gambling by credit cards. The Bank is
permitted to rely on the procedures established by our credit
card operators to block illegal gambling transactions. While it
is up to these operators to determine their specific
procedure, it is possible that they may not differentiate
between lawful and unlawful gambling, choosing instead to
block all gambling transactions. Customers should be aware
that all illegal Internet gambling transactions are prohibited
and cannot be processed through the bank.
27. VISA Account Updater Service (VAU). Your account is
automatically enrolled in the Visa Account Updater Service
(VAU). This service is provided by Visa as a benefit in order to
facilitate uninterrupted processing of recurring charges you
have authorized. Under the VAU service, we provide notice to
Visa when your acre number or expiration date change (i.e.,
when renewing an expiring Card or Merchant compromise).
If you have authorized a participating merchant to bill your
Card for recurring payments, Visa notifies the merchant of
your new Card number and expiration date. Card numbers
are only supplied to merchants who participate in the VAU
service. Because not all merchants participate in the VAU
service, you should still notify each merchant when your Card
number changes in order to permit recurring payments to
continue to be charged to your account.
If you would like to opt out of the VAU Service, please contact
The Bank of Washington at 1-877-921-2432.

4
Consumer Visa Disclosure - DR

REV. 10/2018

